WAIVER

Supreme Court of the United States

No. 20-1065

ry
Oe 1

 

Christopher Hudler ve Pennsylvania
(Petitioner) (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
a Piease enter my appearance as Counsel of Record for all respondents.

O There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

{; am a member of the Bar of the Supreme Court of the United States.

a tam not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member. .

signature CL) AK
Date: oz le) 22 |

(Type or print) Name. “p> . Tere Jeho Kad
OMr. OMs, OMrs, O Miss

Fim SS \atede Rehocnsey Uw ier Gul oh
Address [V3_S Secon
a -
City & State__Lamo< slbus we ~Bi (7837
Phone €ie- 192 — 1918 oF S10: S24 365)
SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF

PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

 

 

Ce: Erase Kiclgea , C85

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.
